No.

In the

Supreme Court of the United States
ALABAMA-COUSHATTA TRIBE OF TEXAS,
v.
STATE OF TEXAS,

Petitioner,

Respondent.

CERTIFICATE OF SERVICE
I, Allyson N. Ho, a member of the Supreme Court Bar, hereby certify that a
copy of the attached Application for an Extension of Time within Which to File
Petition for a Writ of Certiorari to the United States Court of Appeals for the Fifth
Circuit was served on:
Eric A. White
Office of the Attorney General
209 W. 14th Street, 7th Floor
Austin, Texas 78701
T. 512.936.2834
F. 512.474.2697
eric.white@oag.texas.gov
Service was made by first-class mail on August 12, 2019.
/s/ Allyson N. Ho
ALLYSON N. HO
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
2100 McKinney Avenue, Suite 1100
Dallas, Texas 75201
T. 214.698.3100
F. 214.571.2900
aho@gibsondunn.com
Counsel for Petitioner

